HHS/OIG, Audit -"Review of Medicaid Drug Rebate Collections State
of Connecticut Department of Social Services As of June 30, 2002,"(A-01-03-00003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Collections State of Connecticut Department
of Social Services As of June 30, 2002," (A-01-03-00003)
June 16, 2003
Complete Text
of Report is available in PDF format (436 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine (1) the
extent of any uncollected drug rebates as of June 30, 2002, (2) whether the
State agency had established adequate internal controls with regard to the
Medicaid drug rebate program, and (3) the effectiveness of the actions taken
by the State agency to resolve outstanding disputes.  We found that controls
were generally in place to record and track the collection of drug rebates,
and that the federal share of drug rebate amounts was properly offset from
federal Medicaid reimbursement.  However, we found that procedures for
reconciling and reporting the pending drug rebate amounts and the corresponding
aging of these rebates on the Medicaid Quarterly Expenditure Report submitted
to the Centers for Medicare and Medicaid Services (CMS) were not established.  As
a result, the amount reported as the pending balance at June 30, 2002 was understated
by about $14 million (federal share). We recommended that the State agency
ensure procedures are established to provide accurate pending rebate amounts
and properly present an aging schedule of its drug rebate receivables in its
quarterly reports to CMS.  The State agency agreed with our audit finding
and recommendation and indicated the corrective actions it has taken.